                            National Archives and Records Administration
                                                                                                  8601 Adelphi Road
                                                                                 College Park, Maryland 20740-6001

Date             December 4, 2008

Reply to         Office ofInspector General (OIG)
Attn of



Subject 	       Audit Report No. 09-02 Clifton Gunderson LLP (CG) Audit of the National Archives and Records
                Administration FY 2008 Financial Statements

To 	        :    Allen Weinstein, Archivist of the United States (N)


                 Enclosed for your review are the reports prepared by Clifton Gunderson, LLP (CG) for the
                 subject audit. CG issued an unqualified opinion on NARA's FY 2008 and FY 2007 financial
                 statements.

                 CG reported one significant deficiency in internal control over financial reporting in the area of
                 Information Technology resulting in 13 recommendations that if implemented, should correct
                 the matters reported. CG disclosed no material weaknesses and no instances of noncompliance
                 with certain provisions of laws and regulations.

                 In connection with the contract, we reviewed CG's report and related documentation and
                 inquired of its representatives. Our review, as differentiated from an audit in accordance with
                 U.S. Generally Accepted Government Auditing Standards (GAGAS) was not intended to enable
                 us to express, as we do not express, an opinion on NARA's financial statements or conclusions
                 about the effectiveness of internal control or on whether NARA's financial management system
                 substantially complied with FFMIA; or conclusions with laws and regulations. CG is
                 responsible for the attached auditor's report dated Novemberl2, 2008 and the conclusions
                 expressed in the report. However, our review disclosed no instances where CG did not comply,
                 in all material respects, with GAGAS.

                 In accordance with NARA 1201, your written response to each recommendation is due within 45
                 days. We appreciate the cooperation and assistance NARA extended to CG and my staff during
                 the audit. If you have any questions, please contact me or James Springs, Assistant Inspector
                 General for Auditing at (301) 837-3000.




                                           National Archives and Records Administration
